A-6

Appendix A

NOTE: This order is nonprecedential.

United States Court of Appeals for the FederalCircuit

HENRY E. GOSSAGE,
Petitioner
v.
MERIT, SYSTEMS PROTECTION BOARD,
Respondent
2018-1970

Petition for review of the Merit Systems Protection
Board in No. SE-0731-01-0261-I-5.

ON PETITION FOR REHEARING EN BANC

Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O'MALLEY, REYNA, WALLACH,
TARANTO, CHEN, and STOLL, Circuit Judges*.

PER CURIAM.
ORDER

A-7

Petitioner Henry E. Gossage filed a petition for
re- hearing en banc. The petition was first referred as
a petition for rehearing to the panel that heard the
appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.

Upon consideration thereof, IT IS ORDERED
THAT: The petition for rehearing en banc is denied.
The mandate of the court will issue on February 8,
2019.
FOR THE COURT

February 1, 2019 /s/ Peter R. Marksteiner
Date

Peter R. Marksteiner
Clerk of Court

*

Circuit Judge Hughes did not participate

A-10

Appendix C

NOTE: This order is nonprecedential.
United States Court ofAppeals
for the FederalCircuit

HENRY E. GOSSAGE,
Petitioner
v.
MERIT SYSTEMS PROTECTION BOARD,
Respondent

2018-1970

Petition for review of the Merit Systems Protection
Board in No. SE-0731-01-0261-I-5.

Before REYNA, TARANTO, and STOLL, Circuit
Judges.
PER CURIAM.
ORDER
After receiving the parties' responses to this court's
show cause order, the court dismisses Henry E.
Gossage's petition for review for lack of jurisdiction.

A-11

I.
In July 2008, an administrative judge of the
Merit Systems Protection Board affirmed the
determination of the Office of Personnel
Management ("OPM") that Mr. Gossage was not
suitable for employment. The full Board affirmed
that decision on March 24, 2009. Mr. Gossage
petitioned this court to review that final Board
decision, but the petition was ultimately dismissed in
October 2009 for failure to prosecute after he failed
to file a brief.
In February 2012, Mr. Gossage sought the
Board's reconsideration, alleging that he obtained
evidence in 2011 that revealed OPM had defrauded
the Board during the course of his first appeal. Mr.
Gossage filed a second request for reconsideration in
May 2012, which repeated these allegations. On
August 3, 2012, the Board's Office of the Clerk
("Clerk") sent Mr. Gossage a form letter explaining
that he had no right to seek reconsideration of the
Board's March 24, 2009 final decision. Mr. Gossage
did not seek review of that letter in this court.
On March 12, 2018, Mr. Gossage filed at the
Board a document styled as a new appeal but merely
reasserting the allegations from his prior requests for
reconsideration. * On April 27, 2018, the Clerk again
sent Mr. Gossage a letter identical in substance to
the previous letter, explaining he had no right to
seek reconsideration of the Board's March 24, 2009
final decision. Mr. Gossage then petitioned this court
for review of the letter.
* It appears that on August 6, 2012 and
February 7, 2013, Mr. Gossage filed a third

A-12

and fourth request for reconsideration making
the same allegations, which were again met
with a letter from the Clerk of the Board. Mr.
Gossage also did not seek review of that letter.
II.
This court's jurisdiction to review decisions by
the Board is limited. Pursuant to 28 U.S.C.
§1295(a)(9), we may only hear "an appeal from a final
order or final decision" of the Board. We conclude
that the Clerk's letter denying Mr. Gossage's request
to reconsider his appeal was not a final order or
decision of the Board. In Haines v. Merit Systems
Protection Board, 44 F.3d 998, 1000 (Fed. Cir. 1995),
this court held that a form letter from the Clerk
denying a repetitive motion to reopen was not a
"final order or final decision" of the Board because it
was not akin to an initial decision, a denial of a
petition for review by the Board, or a Board decision
disposing of an entire action. Rather, the Clerk's
form letter was "merely an administrative response"
to the petitioner's third request to reopen the appeal,
and the Clerk "was performing only a ministerial
function" within his delegated authority. Id; see also
McCarthy v. Merit Sys. Prot. Bd., 809 F.3d 1365,
1370 (Fed. Cir. 2016).
As in Haines, the Clerk's April 2018 letter was
simply an administrative response to a repetitive
motion for reconsideration. We therefore dismiss.
Accordingly,
IT IS ORDERED THAT:
The stay of the briefing schedule is lifted.

A-13

The petition for review is dismissed.
All pending motions are denied.
Each side shall bear its own costs.
FOR THE COURT

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court
s25

A-97

Appendix 0

UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
97 M.S.P.R. 366
HENRY E. GOSSAGE,
Appellant,
v.
OFFICE OF PERSONNEL
MANAGEMENT,
Agency.
DOCKET NUMBER
SE-0731-01-02614-2
DATE: September 27, 2004
Paul D. Doumit, Esquire, Olympia, Washington, for
the appellant.
Kiraya I. Jones, Esquire, Washington, D.C., for the
agency.

BEFORE
Neil A. G. McPhie, Acting Chairman
Susanne T. Marshall, Member
Acting Chairman McPhie and Member Marshall both
issue separate opinions.

A-98

ORDER
This case is before the Board by petition for
review of the initial decision which dismissed the
refiled petition for appeal as moot. The two Board
members cannot agree on the disposition of the
petition for review. Therefore, the initial decision
now becomes the final decision of the Merit Systems
Protection Board in this appeal. Title 5 of the Code of
Federal Regulations, section 1200.3(b) (5 C.F.R. §
1200.3(b)). This decision shall not be considered as
precedent by the Board in any other case. 5 C.F.R. §
1200.3(d).

NOTICE TO THE APPELLANT REGARDING
YOUR FURTHER REVIEW RIGHTS
You have the right to request the United States
Court of Appeals for the Federal Circuit to review
this final decision. You must submit your request to
the court at the following address:
United States Court of Appeals
for the Federal Circuit
717 Madison Place, N.W.
Washington, DC 20439
The court must receive your request for review no
later than 60 calendar days after your receipt of this
order. If you have a representative in this case, and
your representative receives this order before you do,
then you must file with the court no later than 60
calendar days after receipt by your representative. If
you choose to file, be very careful to file on time. The

A-99

court has held that normally it does riot have the
authority to waive this statutory deadline and that
filings that do not comply with the deadline must be
dismissed. See Pinat v. Office of Personnel
Management, 931 F.2d 1544 (Fed. Cir. 1991). If you
need further information about your right to appeal
this decision to court, you should refer to the federal
law that gives you this right. It is found in Title 5 of
the United States Code, section 7703 (5 U.S.C. §
7703). You may read this law as well as review the
Board's regulations and other related material at our
web site, Itttp://www:mpb,BOST.
FOR THE BOARD:
Washington, D.C.

Bentley M. Roberts, Jr.
Clerk of the Board

A-100

SEPARATE OPINION OF NEIL A. G. MCPHIE
in
Henry E. Gossage v. Office of Personnel Management
MSPB Docket No. SE-0731-01-0261-I-2
¶1
I write separately to express my views that: (1)
The agency's actions did not render moot the
appellant's appeal of his suitability determination;
and (2) the Board may have jurisdiction over an
alleged constructive suitability determination, and
that matter is not barred by collateral estoppel.
¶2
The facts of this case, which are not in dispute,
are as follows: The appellant pleaded guilty in 1992
to charges of rape and incest. After serving
approximately three years in prison, he was released'
on parole. Initial Appeal File (IAF), Tab 10, Subtab
2o. He applied for various positions with the Federal
government. Id., Subtab 2u. The Office of Personnel
Management (OPM) found him unsuitable on the
basis of an investigation showing his conviction and
falsification of employment documents and false
statements in connection with his application for an
Industrial Hygienist position with the Occupational
Safety & Health Administration (OSHA). OPM
debarred him from Federal employment until July
21, 2000. Id., Subtab 2o. The appellant filed an
appeal with the Board of that decision. The
administrative judge (AJ) affirmed OPM's decision,
and the Board denied his petition for review. Gossage
v. Office of Personnel Management, MSPB Docket No.
SE-0731-98-0139-I-1 (Initial Decision, June 30,
1998), review denied, 81 M.S.P.R. 651 (1998) (Table),
review dismissed, 215 F.3d 1340 (Fed. Cir. 1999)
(Table); IAF, Tab 10, Subtab 2o.

A-101

¶3
When the period of debarment expired, the
appellant, who is preference eligible, again applied
for an Industrial Hygienist position with OSHA. His
name was at the top of a certificate of eligibles, along
with two other candidates, both of whom withdrew
their applications. OSHA requested authority from
OPM to pass over his application. IAF, Tab 10,
Subtab 2o. OSHA also notified the appellant that it
intended to object to him on the basis of suitability
for the position, specifically his incarceration
between 1992 and 1995. Id. On November 30, 2000,
OPM issued a written decision granting OSHA's
request to pass over the appellant. OPM informed
him that it would conduct an investigation as to his
suitability. Id., Subtab 2L After notifying the
appellant that it proposed to find him ,unsuitable and
affording him an opportunity to respond, OPM issued
a determination on May 16, 2001, rating the
appellant ineligible for the Industrial Hygienist
position with OSHA, canceling any eligibilities he
had obtained from this application or other pending
applications, and debarring him until May 16, 2003.
The determination was based on his criminal
conviction and resulting penalties and the
falsification and false statement made in connection
with his applications in 1996 and 1997. 'Id., 'Subtabs
2a, 2b, 2d.
¶4
The appellant filed an appeal of OPM's May
16, 2001 decision finding him unsuitable for Federal
employment and debarring him for two years. IAF,
Tabs 1, 2. OPM filed a motion to dismiss the appeal
as moot based on its withdrawal of the May 16, 2001
negative suitability and debarment determination.
Refiled IAF, Tab 6. The appellant objected to the
dismissal of his appeal. Id., Tabs 7, 9. Without

A-102

affording the appellant the hearing he requested, the
AJ issued an initial decision dismissing the appeal.
He found that the appeal had been rendered moot by
OPM's withdrawal of its negative suitability
determination and debarment and by the collateral
estoppel effect of the Board's earlier decision
regarding the same charge of criminal conduct.
Refiled IAF, Tab 12. The appellant's appeal of the
May 16, 2001, suitability determination is not moot.
¶5
The Board's jurisdiction is not plenary; it is
limited to those matters over which it has been given
jurisdiction by law, rule, or regulation. Maddox v.
Merit Systems Protection Board, 759 F.2d 9, 10 (Fed.
Cir. 1985). Ordinarily, the Board lacks jurisdiction
over an appeal of a nonselection for a vacant position.
Metzenbaum v. General Services Administration, 83
M.S.P.R. 243, ¶ 4 (1999). The Board has jurisdiction
over appeals of negative suitability determinations,
however, under 5 C.F.R. §§ 731.1-3(d) and 731.501.
¶6
The Board's jurisdiction attaches at the time
an appeal is filed and is generally unaffected by the
parties' subsequent action. The agency's unilateral
modification of an appealable action after an appeal
has been filed cannot divest the Board of jurisdiction,
unless the appellant consents to such divestiture, or
the agency completely rescinds the action being
appealed. Thus, the Board may dismiss an appeal as
moot if the appealable action has been completely
rescinded, i.e., the employee must be returned to the
status quo ante and not left in a worse position
because of the cancellation than he would have been
if the matter had been adjudicated. Gillespie v.
Department of Defense, 90 M.S.P.R. 327, ¶ 7 (2001).

A-103

¶7
Nevertheless, when an appellant has
outstanding, viable claims for compensatory damages
before the Board, the agency's complete rescission of
the action appealed does not afford him all of the
relief available before the Board and therefore does
not render the appeal moot. Currier v. U.S. Postal
Service, 72 M.S.P.R. 191, 197 (1996). Here, the
appellant raised claims of discrimination based on
race, age, and disability. IAF, Tab 2. The AJ failed to
inform him of his burden of proof on the
discrimination issues or any necessity to raise a
claim for compensatory damages to avoid dismissal
of the appeal as moot. Based on that failure, I would
remand this appeal to the AJ for adjudication of the
appellant's discrimination claims. See Botello v.
Department of Justice, 76 M.S.P.R. 117, 124 (1997)
(the Board ordered the AJ on remand to adjudicate
the appellant's claims of reprisal for filing equal
employment opportunity complaints, if he found that
the action appealed was a negative suitability
determination within the Board's jurisdiction);
Vannoy v. Office of Personnel Management, 75
M.S.P.R. 170, 175-77 (1997) (the AJ erred in failing
to apprise the appellant of his burden of proof and
the elements of proof on his disability discrimination
claim, but the error did not harm his substantive
rights because he was not a qualified, disabled
individual). I would instruct the AJ to notify the
appellant of his burden of proof and the elements of
such discrimination claims, and to afford him an
opportunity to engage in discovery relevant to his
discrimination claims and to raise a claim for
compensatory damages. I would also instruct the AJ
to convene a hearing, if the appellant expressed his
desire for one. The Board may have jurisdiction over

A-104

the alleged constructive negative suitability
determination and the matter is not barred by
collateral estoppel.
¶8
The appellant argues that, despite OPM's
withdrawal of the May 16, 2001 negative suitability
determination, the appeal is not moot because the
continued existence of the authority for OSHA to
pass over his application constitutes a constructive
negative suitability determination governed by the
holding in Edwards v. Department of Justice, 86
M.S.P.R. 365, lot 5-14 (2000). In that case, the Board
found that, under certain circumstances, a sustained
objection to consideration of an applicant could
constitute a negative suitability determination.
¶9
In this case, the AJ found that, even if the
approval of OSHA's request to pass over the
appellant were a constructive negative suitability
determination, the appellant was collaterally
estopped from making that argument because the
only issue within the Board's authority to review
under OPM's revised regulation had already been
adjudicated. Initial Decision at 2-3. I disagree.
¶10 Under OPM's regulation at 5 C.F.R. § 731.501,
which is the source of the Board's jurisdiction over
appeals of negative suitability determinations and
which, effective January 29, 2001, revised OPM's
previous regulation, [a]n individual who has been
found unsuitable for employment may appeal the
determination to [the Board]. If the Board finds one
or more charges are supported by a preponderance of
the evidence; it shall affirm the determination. If the
Board sustains fewer than all the charges, the Board
shall remand the case to OPM or the agency to
determine whether the action taken is still

A-105

appropriate based on the sustained charge(s). This
determination of whether the action taken is
appropriate shall be final without any further appeal
to the Board. 5 C.F.R. § 731.501 (2003). The AJ
interpreted this regulation to mean that the Board's
review of a negative suitability determination is
limited to the substance of the conduct on which the
negative suitability determination is based. The AJ
found that the conduct underlying this alleged
constructive negative suitability determination was
previously adjudicated in the earlier appeal in which
it was found that the appellant engaged in the
criminal conduct and that the conduct supported a
negative suitability determination. Based on his
interpretation of OPM's revised regulation, the AJ in
this case gave collateral estoppel effect to that earlier
finding.
¶11 OPM's regulations at 5 C.F.R. part 731 do not
define "charge," and the Board has not yet
interpreted OPM's revised regulation. "Charge" is
susceptible of two meanings. It can mean the factual
basis for the negative suitability determination or
the suitability determination itself.
¶12 In the supplementary information in the
Federal Register notice regarding the revised
regulation, OPM responded to comments to its
proposed regulations, specifically in regard to Board
appeal rights. OPM explained the revised regulation,
stating:
Specifically, the regulation is designed to clarify that
the Board's role in reviewing OPM or agency
unsuitability decisions always has been a limited
one. The Board may determine only whether a
charge of unsuitability is sustained by a

A-106

preponderance of the evidence in accordance with the
substantive standard set forth in section 731.202. 65
Fed. Reg. 82239, 82242-43 (Dec. 28, 2000). Based on
OPM's reference to a "charge of unsuitability," I
would find that 5 C.F.R. § 731.501 provides the
Board with jurisdiction to review the determination
of whether an individual is suitable for Federal
employment. That determination encompasses the
factors set forth at 5 C.F.R. §§ 731.202(a) and (b) as
well as the additional considerations listed at
subpart 731.202(c).
¶13 Thus, I would find that the AJ judge erred in
affording collateral estoppel effect in this case to the
Board's previous decision affirming the negative
suitability determination in Gossage, MSPB Docket
No. SE-0731-98-0139-I-1 (Initial Decision, June 30,
1998). Collateral estoppel, or issue preclusion, is
appropriate when
an issue is identical to that involved in the
prior action;
the issue was actually litigated in the prior
action;
the determination on the issue in the prior
action was necessary to the resulting
judgment; and
the party precluded was fully represented
in the prior action.
Kroeger v. U.S. Postal Service, 865 F.2d 235, 239
(Fed. Cir. 1988). Although the instant alleged
constructive negative suitability determination and
request to pass over his application were based on
the same criminal conduct, the additional

A-107

considerations appropriate to a suitability
determination require further review to determine
whether the felony conviction and incarceration
continue to warrant a determination of unsuitability.
Among the additional considerations at 5 C.F.R. §
731.202(c) are the recency of the conduct and the
absence or presence of rehabilitation or efforts
,toward rehabilitation. As these circumstances may
have changed between the issuance of the first
negative suitability determination and this alleged
constructive negative suitability determination,
these issues, as they relate to the appellant's current
suitability for Federal employment, were not
previously litigated.
¶14 Therefore, I would remand this matter to the
AJ for a determination of whether the request to pass
over the appellant is within the Board's jurisdiction
as a constructive negative suitability determination.
If so, then I would instruct the AJ to decide whether
that determination is supported by preponderant
evidence, on the basis of not only the fact of the
appellant's conviction and incarceration but also the
additional considerations at 5 C.F.R. § 731.202(c). I
would further instruct the AJ to adjudicate the
appellant's claims of discrimination as they relate to
the alleged constructive negative suitability
determination.

Date Neil A. G. McPhie
Acting Chairman

A-108

SEPARATE OPINION OF SUSANNE T.
MARSHALL
in
Henry E. Gossage v. Office of Personnel Management
MSPB Docket No. SE-0731-01-0261-I-2
¶15 The administrative judge correctly found that
this appeal is moot because all of the issues
previously litigated in this negative suitability
determination were the same as the ones raised in
the present appeal and therefore had collateral
estoppel effect. Indeed, the Office of Personnel
Management (OPM) cancelled the negative
suitability determination and reinstated the
appellant so he could compete for federal positions,
except for the positions for which OPM, acting under
proper authority, previously found the appellant
unsuitable.
¶16 A June 30, 1998 initial decision by the Board's
administrative judge sustained OPM's decision that
the appellant was unsuitable for federal employment,
including positions as an Industrial Hygienist or a
Safety & Occupational Specialist with the
Occupational Safety & Health Administration
(OSHA). Gossage v. Office of Personnel Management,
MSPB Docket No. SE-0731-98-0139-I-1 (Initial
Decision June 30, 1998). The administrative judge
based his decision on the appellant's plea of guilty in
state court to four criminal counts — two counts of
incest (first degree), one count of rape (third degree),
and one count of attempted incest (first degree). Id.
at 3. The appellant spent ten years in jail on those
charges. Petition for Review File, Tab 1. The June
30, 1998 initial decision also found that the appellant

A-109

made false and deceptive statements during his
application process for the OSHA jobs regarding his
criminal record. Initial Decision at 4-6. That initial
decision became the Board's final decision when the
Board denied the appellant's petition for review by
final order. 81 M.S.P.R. 651 (1998) (Table). The
United States Court of Appeals for the Federal
Circuit dismissed the appellant's request for review
of the Board's decision in that case. Gossage v. Office
of Personnel Management, 215 F.3d 1349 (Fed. Cir.
1999) (Table).
1117 As thoroughly explained in the administrative
judge's April 22, 2002 initial decision, OPM's decision
to reinstate the appellant for consideration for
federal employment moots out the appeal. Gossage v.
Office of Personnel Management, MSPB Docket No.
SE-0731-01-0261-I-2, Initial Decision at 2 (April 22,
2002). What OPM did here was simply keep in place
the appellant's disqualification for the OSHA
positions for which he was previously found
unsuitable — the Industrial Hygienist and Safety &
Occupational Specialist positions. Id. at 1-2. That
was a decision which the Board sustained in its final
decision in the 1998 initial decision, and which was
not overturned by the Federal Circuit. The
administrative judge properly concluded that OPM's
decisions on the OSHA positions, which were fully
decided in a final 1998 Board decision, collaterally
estopped the appellant from raising those matters in
the instant appeal. Collateral estoppel also precludes
the appellant from raising any discrimination or
claims of violations of the Veterans Employment
Opportunities Act of 1998 (VEOA) that he raised or
could have raised in the 1998 appeal. Id. at

A-110

2-3; see Kroeger v. U.S. Postal Service, 865 F.2d 235,
239 (Fed. Cir. 1988) (collateral estoppel, or issue
preclusion, is appropriate when (1) an issue is
identical to that involved in the prior action, (2) the
issue was actually litigated in the prior action, (3)
the determination on the issue in the prior action
was necessary to the resulting judgment, and (4) the
party precluded was fully represented in the prior
action).
¶18 In the present appeal, the appellant has
merely argued that he is "of Japanese heritage" and
has a "physical disability" of an unspecified nature.
Initial Appeal File, Tab 1. Such bare assertions are
insufficient to raise a suitability determination claim
based on a final Board decision in a 1998 appeal. In
fact, on petition for review, the appellant
acknowledges that OPM's actions moot out the
appeal except for the matter of the OSHA positions
which were filled many years ago. That case is long
over. Remand under these circumstances serves no
purpose. The administrative judge therefore correctly
decided that the prior Board decision has collateral
estoppel effect with regard to the OSHA positions at
issue.
1119 The administrative judge's decision here was
neither arbitrary, capricious, nor an abuse of
discretion, and it comported with Board procedures.
See United States Postal Service v. Gregory, 534 U.S.
1, 6-7, 122 S. Ct. 431, 434 (2001). Absolutely no
reason exists to disturb it. The appellant's petition
for review should therefore denied.

Susanne T. Marshall

A-111

Appendix P

UNITED STATES OF AMERICA.
MERIT SYSTEMS PROTECTION BOARD
97 M.S.P.R. 366
HENRY E. GOSSAGE,
Appellant,
v.
OFFICE OF PERSONNEL
MANAGEMENT,
Agency.
DOCKET NUMBER
SE-0731-01-0261-I-2
DATE: April 22, 2002
Paul D. Doumit, Esquire, Olympia, Washington, for
the appellant.
Kimya I. Jones, Esquire, Washington, D.C., for the
agency.
Before
James H. Freet
Administrative Judge

A-112

INITIAL DECISION

By appeal refiled October 12, 2001, the
appellant has challenged a May 16, 2001, suitability
decision by the Office of Personnel Management
(OPM). For the reasons discussed below, the appeal
is DISMISSED.
In its suitability decision, OPM found the
appellant unsuitable for Federal employment
cancelled all eligibilities for employment which the
appellant might currently have and debarred him
from competition for, or appointment to, any position
in the competitive Federal service for a period of 2
years. See OPM File, Tab 2a. In that decision, OPM
also rated ineligible a particular application for the
position of industrial Hygienist which the appellant
had filed with the Occupational Safety & Health
Administration (OSHA). See id. OSHA had requested
that the appellant be removed from consideration because his prior conviction and incarceration for a
felony would interfere with his ability represent
OSHA as an expert witness in court. Such court
appearances are expected of OSHA' s compliance
officers. See OPM File, Tab 2b (OPM Form 86A). An
agency may make such objection to a particular
candidate; OPM has authority to grant the objection
by disqualifying the candidate for particular
positions. See 5 C.F.R. § 332.406 (2001).
By Motion filed January 16, 2002, OPM stated
that it was thereby reinstating the appellant's
eligibility for competitive registers and withdrawing
its debarment of him from competition for, or
appointment to, Federal positions. OPM stated,

A-113

however, that its action did not change its decision to
grant OSHA' s request for permission to disqualify
the appellant for the Industrial Hygienist position
OPM moved that the appeal be dismissed as moot.
The appellant has objected to that motion. See
Appellant's Submissions of January 24 and March 8,
2002. For the reasons discussed below, OPM's motion
is GRANTED.
It is clear that OPM's action moots the
portions of its May 16, 2001, suitability decision
which concerned the general cancellation of
eligibilities for employment and the general 2-year
debarment. The appellant has received full relief on
these elements of his appeal.
The remaining question is the reviewability of
the OPM permission for OSHA to disqualify the
appellant for the Industrial Hygienist position. Such
actions by OPM are not necessarily appealable to the
Board. Depending on the true nature of the grounds
for an agency's request for disqualification, OPM' s
approval may be either a non-appealable nonselection decision or an appealable constructive
suitability decision. See Edwards v. Department of
Justice, 87 M.SP.R. 518, 522-23 (2001)
Even if it is assumed that OPM's permission to
OSHA to disqualify the appellant is a constructive
suitability determination, there is no issue for the
Board to resolve in this particular appeal. OSHA's
disqualification request was based on the appellant's
felony conviction in 1992 and bis resulting
incarceration. The issue of the appellant's felony
conviction and incarceration is barred from further
consideration by the Board by the doctrine of
collateral estoppel. Collateral estoppel, or issue

A-114

preclusion, is appropriate when (1) an issue is
identical to that involved in the prior action, (2) the
issue was actually litigated in the prior action, (3)
the determination on the issue in the prior action
was necessary to the resulting judgment, and ( 4) the
party precluded was fully represented in the prior
action. See Kroeger v. U.S. Postal Service, 865 F.2d
235, 239 (Fed. Cir. 1988); Jay v. Department of the
Navy, 90 M.S.P.R. 635, 641 (2001). The same
conviction and incarceration which is the basis for
OSHA' s request for permission to disqualify the
appellant was an element in a prior appeal to this
Board concerning an earlier suitability decision by
OPM which covered the period ending July 21, 2000.
See Gossage v. Office of Personnel Management,
MSPB Docket No. SE-0731-98-0139-I-1 (Initial
Decision, Jun. 30, 1998), petition for review denied,
81 M.S.P.R. 651 (1998) (Table), review dismissed, 215
F.Jd 1340 (Fed. Cir 1999) (Table). The appellant was
found to have engaged in this criminal conduct. See
Gossage, slip op. at 3-4.
Since the charge concerning the appellant's
conviction and incarceration has been established
by collateral estoppel, no issue remains for
adjudication by the Board. Having found the
charge to be factually accurate, the Board is
precluded by regulation from considering whether
the charge warrants the suitability determination
made by OPM. See 5 C.F.R. § 731.SOI(a) (Jan. 29,
2001) ("lf the Board find that one or more charges are
supported by a preponderance of the evidence, it
shall affirm the [suitability] determination.").
In summary, the issues of OPM's general
cancellation of eligibilities and general debarment

A-115

from future consideration are mooted by OPM's
reinstatement decisions and the issue of OSHA's
request to disqualify the appellant is mooted by
collateral estoppel. Therefore, there is no matter for
adjudication by the Board.

DECISION

The appeal is DISMISSED.
FOR THE BOARD:

James H. Freet
Administrative Judge

NOTICE TO APPELLANT'

This initial decision will become final on May 27,
2002, unless a petition for review is filed by that date
or the Board reopens the case on its own motion. This
is an important date because it is usually the last
day on which you can file a petition for review with
the Board. However, if this initial decision is received
by' you more than 5 days after the date of issuance,
you may file a petition for review within 30 days
after the date you actually receive the initial
decision. The date on which the initial decision
becomes final also controls when you can file a
petition • for review with the Court of Appeals for the
Federal Circuit. The paragraphs that follow tell you

Additional material
from this filing is
available in the
Clerk's Office.

